Nos. 19-368 and 19-369
IN THE

supreme <!Court of tbe Wniteb ~tates
FORD MOTOR COMPANY,

Petitioner,

v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT,
FORD MOTOR COMPANY,

et al., Respondents.

Petitioner,

v.
ADAM BANDEMER,

Respondent.

On Petitions for Writs of Certiorari
to the Supreme Court of Montana
and the Supreme Court of Minnesota
CERTIFICATE OF COMPLIANCE

I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.l(h), I certify this 6th day of March 2020, that the Brief for the Alliance for
Automotive Innovation and General Aviation Manufacturers Association as Amici

Curiae Supporting Petitioners contains

112.~5

words, excluding the parts of the

document that are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

e A. a tos
win
cter LLP
1900 N Street, NW
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000
1

Executed on March 6, 2020
ACTIVE/I 0255610 I. I

Counsel for Amici Curiae

